                                                               Office of the Managing Director
                                                                               MEMORANDUM

DATE:           November 14, 2011

TO:             David L. Hunt, Inspector General

FROM:           David B. Robbins, Managing Director and Mark Stephens, Chief Financial Officer

SUBJECT:        Management’s Response to Independent Auditors’ Reports on Internal Control Over
                Financial Reporting and Compliance and Other Matters for Fiscal Year 2011

Thank you for the opportunity to review and comment on the draft reports entitled Independent Auditors’
Report on Internal Control Over Financial Reporting and Independent Auditors’ Report on Compliance
and Other Matters. We appreciate the efforts of your team and the independent auditor, KPMG LLP, to
work with the Federal Communications Commission (Commission) throughout the fiscal year (FY) 2011
audit process. This year’s audit opinion was the result of the commitment and professionalism that both
of our offices as well as the independent auditors demonstrated during the FY 2011 audit process. During
the entire audit process, the Commission worked closely with your office and the independent auditors’
team to provide necessary and timely information to facilitate an efficient audit process.

We are pleased that, for the sixth straight year, the independent auditor provided an unqualified opinion
and found that the Commission’s consolidated financial statements for FY 2011 present fairly, in all
material respects, the financial position of the Commission as of September 30, 2011. Six straight years
of clean audit opinions is an unprecedented accomplishment for the Commission. We are also pleased
that the independent auditor did not identify any material weaknesses in the Commission’s financial
reporting. We have worked very hard to continue strengthening the Commission’s internal controls and
improving its financial management.

Despite these successes, work remains here at the Commission. The FY 2011 audit report points out two
significant deficiencies related to internal controls, notes two instances of non-compliance that still need
to be resolved, and mentions one matter that is currently under review. The primary areas of concern
relate to financial system functionality and integration, information technology control weaknesses, and
noncompliance with the Federal Managers’ Financial Integrity Act and the Debt Collection Improvement
Act. We concur with the recommendations made by the independent auditors in their report.

First, with regard to addressing the significant deficiency for financial system functionality and
integration related to the Commission and its reporting components, the Commission has taken significant
steps throughout FY 2011 to resolve the auditors’ findings and improve the performance of its financial
reporting process through the implementation of a new core financial management system. The
Commission’s new core financial system was launched in October 2010, and the Commission is currently
working to efficiently deploy all functionality of that system. Also in FY 2011, the Commission
continued to work closely with its reporting components in their efforts to modernize their financial
systems.

Second, with respect to the significant deficiency related to information technology control weaknesses,
the Commission is already working to fully assess the auditors’ recommendations and to develop
corrective action plans. Some findings are already in the process of being addressed. During FY 2012,
the Commission will make every effort to complete corrective action for each of the recommendations
associated with these findings to avoid any repeat findings in this area.

Third, with respect to the instance of noncompliance with the Federal Managers’ Financial Integrity Act,
the Commission and its reporting components are committed to implementing financial systems that are
fully integrated, and that provide efficient and effective processing and reporting of accounting
transactions and financial information.

Fourth, with respect to the instance of noncompliance with the Debt Collection and Improvement Act, the
Commission is committed to resolving this issue in FY 2012.

Fifth, the Other Matters reported under review as a possible violation of the Anti-Deficiency Act will be
fully investigated in FY 2012. If any violations of the Anti-Deficiency Act are identified after the
investigation, they will be reported to the President and Congress as required by statute and implementing
guidance.

Finally, we are committed to continually strengthening the internal controls of the Commission and its
reporting components. This commitment includes developing timely, accurate, and useful performance
and financial information to ensure the most effective stewardship of both the funds that the Commission
oversees and the funds that the Commission uses to finance its operations. We look forward to working
in FY 2012 to resolve the FY 2011 audit findings and to enhance the culture of integrity, accountability,
and excellence that exists here at the Commission.




David B. Robbins, Managing Director
Office of Managing Director




Mark Stephens, Chief Financial Officer
Office of Managing Director
PRINCIPAL STATEMENTS

FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED BALANCE SHEET
As of September 30, 2011 and 2010
(Dollars in thousands)

                                                                    FY 2011           FY 2010
ASSETS (Note 2)
 Intragovernmental
   Fund balance with Treasury (Note 3)                          $       494,340   $       457,368
   Investments (Note 5)                                               5,822,843         6,087,715
   Accounts receivable (Note 6)                                           1,097               571
   Other (Note 8)                                                         2,436            33,838
 Total intragovernmental                                              6,320,716         6,579,492

 Cash and other monetary assets (Note 4)                               213,944           100,344
 Accounts receivable, net (Note 6)                                     831,072           783,620
 Loans receivable, net (Note 7)                                              4            48,470
 General property, plant, and equipment, net                            60,461            65,167
 Other                                                                  13,053            13,088

Total assets                                                    $     7,439,250   $     7,590,181

LIABILITIES (Note 9)
 Intragovernmental
   Debt (Note 10)                                               $       50,300    $       87,726
   Other (Note 11)
    Custodial                                                          206,524           226,400
    Other                                                               13,725            25,572
   Total other                                                         220,249           251,972

 Total intragovernmental                                               270,549           339,698

 Accounts payable                                                       92,976           120,477
 Other (Note 11)
  Deferred revenue                                                      93,053           132,386
  Prepaid contributions                                                 77,362            74,915
  Accrued liabilities for Universal Service                            633,967           622,400
  Other                                                                 35,804            49,408
 Total other                                                           840,186           879,109

Total liabilities                                               $     1,203,711   $     1,339,284

 Commitments and Contingencies (Note 12)

NET POSITION
 Unexpended appropriations - other funds                        $        15,105   $        21,183
 Cumulative results of operations - earmarked funds (Note 18)         6,089,350         6,135,941
 Cumulative results of operations - other funds                         131,084            93,773

Total net position                                              $     6,235,539   $     6,250,897

Total liabilities and net position                              $     7,439,250   $     7,590,181


                            The accompanying notes are an integral part of these statements.
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED STATEMENT OF NET COST
For the Years Ended September 30, 2011 and 2010
(Dollars in thousands)

                                                               FY 2011              FY 2010
Program costs (Note 13):
 Broadband:
   Total Gross Cost                                        $        54,536      $       80,775

 Competition & Innovation:
  Total Gross Cost                                               9,099,922                      -

 Competition:
  Total Gross Cost                                                        -           9,023,883

 Spectrum:
  Total Gross Cost                                                        -            154,485

 Media:
  Total Gross Cost                                                        -             50,180

 International:
   Total Gross Cost                                                  6,753                      -

 Consumers:
  Total Gross Cost                                                  46,156                      -

 Public Safety & Homeland Security:
  Total Gross Cost                                                  35,576              42,320

 Continual Improvement:
  Total Gross Cost                                                  50,626                      -

 Modernize the FCC:
  Total Gross Cost                                                        -             70,145

Total Program Costs                                        $     9,293,569      $     9,421,788

Cost not assigned to programs:
 Telecommunications Development Fund                                      -                     7
 Other expenses                                                          25                 3,415


Less: earned revenues not attributed to programs                  (472,830)            (464,045)

Net cost of operations                                     $     8,820,764      $     8,961,165


                         The accompanying notes are an integral part of these statements.
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the Years Ended September 30, 2011 and 2010
(Dollars in thousands)

                                                                   FY 2011                                                   FY 2010
                                              Earmarked            All Other                             Earmarked           All Other
                                                Funds               Funds              Total               Funds              Funds              Total

Cumulative Results of Operations:
 Beginning Balances                       $       6,135,941    $         93,773    $    6,229,714    $       6,051,177   $        171,894    $    6,223,071

Budgetary Financing Sources:
 Other adjustments (rescissions, etc )                    -               1,041             1,041                    -                (77)              (77)
 Appropriations used                                      -              45,266            45,266                    -             41,773            41,773
 Non-exchange revenue (Note 18)                   8,771,949                   -         8,771,949            8,990,926                  -         8,990,926

Other Financing Sources (Non Exchange):
 Transfers in/out without reimbursement                   -                   -                 -                    -            (23,311)          (23,311)
 Imputed financing                                        -              17,457            17,457                    -             15,382            15,382
 Other                                                    -             (24,229)          (24,229)                   -            (56,885)          (56,885)

Total Financing Sources                           8,771,949              39,535         8,811,484            8,990,926            (23,118)        8,967,808
Net Cost of Operations                            8,818,540               2,224         8,820,764            8,906,162             55,003         8,961,165
Net Change                                          (46,591)             37,311            (9,280)              84,764            (78,121)            6,643

Cumulative Results of Operations                  6,089,350             131,084         6,220,434            6,135,941             93,773         6,229,714


Unexpended Appropriations:
 Beginning Balances                                       -              21,183            21,183                    -             44,000            44,000

Budgetary Financing Sources:
 Appropriations received                                  -              40,267            40,267                    -             18,956            18,956
 Other adjustments                                        -              (1,079)           (1,079)                   -                  -                 -
 Appropriations used                                      -             (45,266)          (45,266)                   -            (41,773)          (41,773)
 Total Budgetary Financing Sources                        -              (6,078)           (6,078)                   -            (22,817)          (22,817)

Total Unexpended Appropriations                           -              15,105            15,105                    -             21,183            21,183

Net Position                              $       6,089,350    $        146,189    $    6,235,539    $       6,135,941   $        114,956    $    6,250,897




                                   The accompanying notes are an integral part of these statements.
FEDERAL COMMUNICATIONS COMMISSION
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the Years Ended September 30, 2011 and 2010
(Dollars in thousands)
                                                                               FY 2011                                FY 2010

                                                                                   Non Budgetary                          Non Budgetary
                                                                                   Credit Program                         Credit Program
                                                                   Budgetary       Financing Acct         Budgetary       Financing Acct
Budgetary Resources:

Unobligated balance, brought forward, October 1:               $      2,567,572    $         4,387    $      3,035,116    $        12,344
Recoveries of prior year unpaid obligations                           1,062,160                -             1,043,329                -
Budget authority:
 Appropriations received                                              8,785,026                -             9,005,071                -
 Borrowing authority (Note 15)                                              -               50,449                 -               56,732
 Spending authority from offsetting collections
   Earned:
    Collected                                                          460,046              78,111            450,207              14,873
    Change in receivables from Federal sources                             343                 -                  -                   -
   Change in unfilled customer orders:
    Advance received                                                     (9,579)               -                16,003                -
    Without advance from Federal sources                                     39                -                   -                  -
 Budget authority subtotal                                            9,235,875            128,560           9,471,281             71,605

Temporarily not available pursuant to Public Law                         (6,247)               -                (5,739)               -
Permanently not available                                                   (38)           (87,874)                (75)           (15,490)

Total budgetary resources                                      $     12,859,322    $        45,073    $     13,543,912    $        68,459

Status of Budgetary Resources:

Obligations incurred: (Note 14)
 Direct                                                        $     10,127,517    $         8,065    $     10,958,600    $        64,072
 Reimbursable                                                             4,206                -                17,740                -
 Subtotal                                                            10,131,723              8,065          10,976,340             64,072

Unobligated balance:
 Apportioned                                                             21,134                  1             244,720                -
 Exempt from apportionment                                            2,550,957                -             2,164,357                -
Unobligated balance not available                                       155,508             37,007             158,495              4,387

Total status of budgetary resources                            $     12,859,322    $        45,073    $     13,543,912    $        68,459



Change in Obligated Balance:

Obligated balance, net
 Unpaid obligations, brought forward, October 1                $      3,736,251    $           -      $      3,157,411    $           -
 Total unpaid obligated balance, brought forward, net                 3,736,251                -             3,157,411                -

Obligations incurred net (+/-)                                       10,131,723              8,065          10,976,340             64,072
Gross outlays                                                        (9,389,025)            (8,065)         (9,354,171)           (64,072)
Recoveries of prior year unpaid obligations, actual                  (1,062,160)               -            (1,043,329)               -
Change in uncollected customer payments from Federal sources               (382)               -                   -                  -
 Total, unpaid obligated balance, net, end of period                  3,416,407                -             3,736,251                -

Obligated balance, net, end of period
 Unpaid obligations                                                   3,416,789                -             3,736,251                -
 Uncollected customer payments from
    Federal sources                                                        (382)               -                   -                  -
 Total, unpaid obligated balance, net, end of period                  3,416,407                -             3,736,251                -


Net Outlays

Net Outlays:
  Gross outlays                                                $      9,389,025 $            8,065    $      9,354,171 $           64,072
  Offsetting collections                                               (450,467)           (78,111)           (466,210)           (14,873)
  Distributed offsetting receipts                                       (59,041)               -              (110,015)               -
  Net outlays                                                  $      8,879,517 $          (70,046)   $      8,777,946 $           49,199



                                      The accompanying notes are an integral part of these statements.
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED STATEMENT OF CUSTODIAL ACTIVITY
For the Years Ended September 30, 2011 and 2010
(Dollars in thousands)

                                                                          FY 2011                FY 2010
Revenue Activity:
 Sources of Cash Collections:
   Spectrum Auctions                                                  $        66,871        $       391,144
   Fines and Penalties                                                         43,061                 10,438
   Credit Reform                                                                7,831                  6,961
   TDA Interest                                                                   -                        7
 Total Cash Collections                                                       117,763                408,550

 Accrual Adjustments
  Spectrum Auctions                                                                  4                   -
  Fines and Penalties                                                           (1,751)                6,061
 Total Accrual Adjustments                                                      (1,747)                6,061

Total Custodial Revenue                                                       116,016                414,611

Disposition of Collections:
 Transferred to Others:
    Recipient A: U.S. Treasury                                                 (50,892)              (17,399)
    Recipient B: National Telecommunications & Information Admin.                  -                (196,613)

 (Increase)/Decrease in Amounts Yet to be Transferred                           19,876              (115,592)
 Retained by the Reporting Entity                                              (85,000)              (85,007)

Net Custodial Activity                                                $             -        $             -




                          The accompanying notes are an integral part of these statements.
NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS
FOR THE YEARS ENDED SEPTEMBER 30, 2011 AND 2010
(DOLLARS IN THOUSANDS UNLESS OTHERWISE STATED)


Note 1 - Summary of Significant Accounting Policies

A. Reporting Entity

The Federal Communications Commission (Commission or FCC) is an independent United States
Government agency, established by the Communications Act (Act) of 1934, as amended. The
Commission is charged with regulating interstate and international communications by radio, television,
wire, satellite, and cable. The Commission’s jurisdiction spans the 50 states, the District of Columbia,
and the U.S. possessions. Five commissioners direct the Commission; they are appointed by the
President of the United States and confirmed by the Senate for five-year terms, except when filling an
unexpired term or serving in holdover status.

The Commission is comprised of three reporting components. The primary component consists of
Commission headquarters and field offices. The two additional components are the Universal Service
Fund (USF) and the North American Numbering Plan (NANP). The USF reports the results of the four
Universal Service support mechanisms (established pursuant to section 254 of the Act, as amended) and
the results of the Telecommunications Relay Service (TRS) Fund (established by the Americans with
Disabilities Act of 1990, Title IV). The NANP reports the results of billing and collection activities
conducted to support the NANP (47 U.S.C. § 251(e); 47 C.F.R. § 52.16, 52.17, 52.32, and 52.33).

B. Basis of Accounting and Presentation

The consolidated financial statements (financial statements) have been prepared from the accounting
records of the Commission in conformity with U.S. generally accepted accounting principles (GAAP) and
the form and content for Federal entity financial statements specified by the Office of Management and
Budget (OMB) Circular No. A-136, Financial Reporting Requirements.

The preparation of financial statements in conformity with GAAP requires management to make
estimates and assumptions that affect the amounts reported in the financial statements. Actual results may
differ from those estimates.

C. Fund Balance with Treasury

Funds with the Department of the Treasury (Treasury) primarily represent appropriated, revolving, and
deposit funds. The Commission may use the appropriated and revolving funds to finance expenditures,
depending on budgetary availability. The deposit accounts are used to hold funds temporarily until they
can be properly disbursed or distributed.
Note 1 - Summary of Significant Accounting Policies (continued)

D. Cash and Other Monetary Assets

Cash and Other Monetary Assets represent cash on deposit and money market funds at several
commercial banks. The accounts are maintained by Universal Service Administrative Company (USAC),
Rolka Loube Saltzer Associates, LLC (RLSA), and Welch LLP, serving as administrators and/or billing
and collection agents. The accounts bear the names of those entities, as well as the Commission or the
fund for which they serve as administrator or billing and collection agent. Cash on deposit is
collateralized by the Federal Reserve.

As of July 1, 2011, RLSA became the new administrator for the TRS Fund. Prior to July 1, 2011, the
TRS fund was administered by the National Exchange Carrier Association (NECA).

E. Investments

Investments are reported net of the unamortized premium or discount. All investments are in Treasury
securities.

F. Accounts Receivable, Net

Accounts Receivable consists of claims made for payment from the public and other Federal entities.
Gross receivables are reduced to net realizable value by an allowance for doubtful accounts.

G. Loans Receivable, Net

The Federal Credit Reform Act (FCRA) of 1990, as amended, governs the reporting requirements for
direct loan obligations made after FY 1991. The FCRA requires that the present value of the subsidy
costs associated with direct loans be recognized as a cost in the year that the loan is obligated. The
present value is calculated as the estimated cash outflows over the life of the loans, less the present value
of the estimated cash inflows, discounted at the interest rate of marketable Treasury securities with a
similar maturity term. Direct loans are reported net of an allowance for subsidy at the present value.

H. Property, Plant and Equipment

The basis for recording purchased general Property, Plant, and Equipment (PP&E) is full cost, including
all costs incurred to bring the PP&E to and from a location suitable for its intended use. All PP&E with
an initial acquisition cost of $25 or more and all internally developed software with a development cost of
$50 or more, and with an estimated useful life of two years or greater, are capitalized. Bulk purchases of
similar items, individually worth less than $25 but collectively worth more than $250, are also capitalized
using the same equipment categories and useful lives as capital acquisitions. PP&E are depreciated on a
straight-line basis over the estimated useful lives of the items. The useful lives used are: forty years for
buildings, seven years for non-computer equipment, five years for computers and vehicles, and three
years for software. Neither land, including permanent improvements, nor software in development is
depreciated. Normal maintenance and repair costs are expensed as incurred.

Leasehold improvements include all costs incurred during the design and construction phase of the
improvement. These costs are amortized over the remaining life of the lease, or the useful life of the
improvements, whichever is shorter.
Note 1 - Summary of Significant Accounting Policies (continued)

I. Other Assets

Other Assets with the public represent the balance of transfers less expenses made by the USF to the
USAC to fund administrative costs in advance. Advances are drawn down as expenses are incurred.
Other Assets – Intragovernmental are discussed in Note 8.

J. Accounts Payable and Accrued Liabilities

Accounts Payable and Accrued Liabilities represent a probable future outflow or other sacrifice of
resources as a result of past transactions or events. Liabilities are recognized when they are incurred,
regardless of whether they are covered by available budgetary resources. Liabilities cannot be liquidated
without legislation that provides resources to do so. As a component of the U.S. Government, a sovereign
entity, payments of all liabilities other than contracts can be abrogated by the sovereign entity.

K. Deferred Revenue

The Commission collects proceeds from the sale of communications spectrum on behalf of the U.S.
Government. All proceeds collected up to the amount of the net winning bid are recognized as deferred
revenue until a “prepared to grant” or “grant” public notice is issued. In addition, the Commission
collects multi-year regulatory fees for five and ten-year periods that are recorded as deferred revenue and
amortized over the period of the fee.

The USF and NANP collect contributions from U.S., Canadian, and Caribbean carriers to cover the costs
of the programs. Some carriers have the option of paying monthly or annually. The unearned portion of
annual contributions is recognized as deferred revenue.

L. Debt

This account represents amounts due to the U.S. Treasury’s Bureau of Public Debt (BPD) to support the
spectrum auction loans program. Borrowings from BPD are determined based on subsidy estimates and
reestimates in accordance with the FCRA of 1990, as amended, and OMB guidance. Interest payments
on debt are calculated annually and remitted to BPD at the end of the fiscal year. These payments are
recorded in a receipt account maintained by the Commission.

M. Retirement Plans and Other Benefits

Federal employee benefits consist of the actuarial portions of future benefits earned by Federal
employees, including pensions, other retirement benefits, and other post-employment benefits. The
Office of Personnel Management (OPM) administers these benefits. The Commission does not recognize
any liability on the Balance Sheet for pensions, other retirement benefits, and other post-employment
benefits. The Commission recognizes and allocates the imputed costs on the Statement of Net Cost and
recognizes imputed financing related to these costs on the Statement of Changes in Net Position.
Note 1 - Summary of Significant Accounting Policies (continued)

M. Retirement Plans and Other Benefits (continued)

Pensions provide benefits upon retirement and may also provide benefits for death, disability, or other
termination of employment before retirement. Pension plans may also include benefits to survivors and
dependents, and they may contain early retirement or other special features. Most Commission
employees participate in the Civil Service Retirement System (CSRS) or the Federal Employee
Retirement System (FERS). Under CSRS, the Commission makes matching contributions equal to seven
percent of basic pay. For FERS employees, the Commission contributes the employer’s matching share
for Social Security, contributes an amount equal to one percent of employee pay to a savings plan, and
matches up to an additional four percent of pay. Most employees hired after December 31, 1983, are
covered by FERS.

The OPM reports on CSRS and FERS assets, accumulated plan benefits, and unfunded liabilities, if any,
applicable to Federal employees.

The actuarial liability for future workers’ compensation benefits includes the expected liability for death,
disability, medical and miscellaneous costs for approved compensation cases, plus a component for
incurred but not reported claims. The liability is determined by using historical benefit payment patterns
related to a specific incurred period to predict the ultimate payment related to that period. The
Department of Labor (DOL) determines no actuarial liability for the Commission due to the immateriality
to the Federal Government as a whole.

The unfunded Federal Employees’ Compensation Act (FECA) liability covers unemployment
compensation and medical benefits. The calculation takes the amount of benefit payments over the last
nine to twelve quarters and then calculates the annual average of payments. The compensation and
medical payments can be found in the chargeback reports that are issued by DOL.

N. Leave

Annual leave is accrued as earned, and the accrual is reduced as leave is taken. Each year, the balance in
the accrued annual leave account is adjusted to reflect current leave balances and pay rates. Annual leave
is reflected as a liability not covered by current budgetary resources. Sick leave and other types of non-
vested leave are expensed as taken.

O. Revenue and Other Financing Sources

Regulatory Fee Offsetting Collections (Exchange) - The Omnibus Budget Reconciliation Act of 1993
directed the Commission to assess and collect regulatory fees to recover the costs incurred in carrying out
certain provisions of its mission. Section 9(a) of the Act, as amended, authorizes the Commission to
assess and collect annual regulatory fees to recover the costs, as determined annually by Congress,
incurred in carrying out its strategic goals of Broadband, Competition and Innovation, International,
Consumers, Public Safety and Homeland Security, and Continual Improvement. These are different from
the strategic goals in FY 2010 which were Broadband, Competition, Spectrum, Media, Public Safety and
Homeland Security, and Modernize the Commission. These fees were established by congressional
authority, and, consistent with OMB Circular No. A-25 revised, User Charges, the Commission did not
determine the full costs associated with its regulatory activity in establishing regulatory fees. Since 1993,
Congress has annually reviewed the regulatory fee collection requirements of the Commission and
established the total fee levels to be collected. Fees collected up to the level established by Congress are
applied against the Commission’s annual appropriation at the close of each fiscal year. The regulatory fee
Note 1 - Summary of Significant Accounting Policies (continued)

O. Revenues and Other Financing Sources (continued)

levels of $335,794 for FY 2011 and $335,794 for FY 2010 were achieved. The Commission collected
$6,247 above the required regulatory level in FY 2011 and $5,739 in FY 2010, which are reported as
temporarily not available pursuant to Public Law. The total cumulative amount collected above the
required regulatory level was $66,170 at September 30, 2011.

Competitive Bidding System Offsetting Collections (Exchange) – One of the Commission’s primary
functions is managing the spectrum auction program. Proceeds from the auctions are initially remitted to
the Commission and are later transferred to the U.S. Treasury, net of anticipated auction related costs
(under 47 U.S.C. § 309, the Commission may retain a portion of the spectrum auction proceeds to offset
the cost of performing the auction function). Collections used to offset the cost of performing auctions-
related activity are capped at $85,000 in FY 2011 and FY 2010.

Radio Spectrum Auction Proceeds (Exchange) – In accordance with the provisions of Statement of
Federal Financial Accounting Standards (SFFAS) 7, Accounting for Revenue and Other Financing
Sources, the Commission accounts for this exchange revenue as a custodial activity. Revenue from
spectrum auctions is recognized when a “prepared to grant” or “grant” public notice is issued. The value
of available spectrum is determined in the market place at the time of auction. The Commission
recognized total custodial revenue related to spectrum auctions net of accrual adjustments of $66,875 in
FY 2011 and $391,144 in FY 2010.

Application Fees (Exchange) – Congress authorized the Commission (47 U.S.C. § 8) to impose and
collect application processing fees and directed the Commission to prescribe charges for certain types of
application processing or authorization services it provides to communications entities over which the
Commission has jurisdiction. The Commission amends its Schedule of Application Fees (47 C.F.R. §
1.1102 et seq.) to adjust the fees for processing applications and other filings. Section 8(b) of the Act, as
amended, requires the Commission to review and adjust its application fees every two years. The
adjusted or increased fees reflect the net change in the Consumer Price Index for all Urban Consumers
(CPI-U), calculated over a specific period of time. Application fees are deposited in the Treasury and are
not available for the Commission’s use. Application fees collected totaled $23,892 in FY 2011 and
$23,311 in FY 2010.

Reimbursable Work Agreements (Exchange) – The Commission recognizes reimbursable work
agreement revenue when earned, i.e., goods that have been delivered or services rendered. The
Commission executed agreements totaling $3,893 in FY 2011 and $21,410 in FY 2010.

Annual Appropriations (Financing Source) – The Commission receives an annual Salaries and Expense
appropriation from Congress. These funds are used to pay for operations during the fiscal year and are
repaid to the Treasury once regulatory fees are collected. The annual appropriation of $335,794 for FY
2011 and $335,794 for FY 2010 is fully funded by regulatory fee collections.

Subsidy Estimates and Reestimates (Financing Source) – The Commission receives permanent-indefinite
authority for its credit reform program account in accordance with the FCRA of 1990, as amended, to
fund its subsidy estimates and reestimates, unless otherwise prescribed by OMB. This account records
the subsidy costs associated with the direct loans after FY 1991, as well as administrative expenses of the
loan program. The Commission received an appropriation for an upward subsidy of $40,267 in FY 2011
and $18,956 in FY 2010. These appropriations are available until used.
Note 1 - Summary of Significant Accounting Policies (continued)

O. Revenues and Other Financing Sources (continued)

USF (Nonexchange) – Carriers conducting interstate telecommunications are required to contribute a
portion of their revenues to fund the cost of providing universal service. These contributions represent
appropriated and earmarked receipts and are accounted for as a budgetary financing source.

Digital to Analog Converter Box Program – DTV Outreach Recovery Act Funds (Financing Source) –
During FY 2009, the National Telecommunications and Information Administration (NTIA), U.S.
Department of Commerce (DOC), transferred $70,605 in appropriated funds to the Commission for the
purposes of consumer education and outreach regarding the digital television transition. These funds
were part of the American Recovery and Reinvestment Act (ARRA) of 2009, which were available for
use during FY 2009 and FY 2010.

Broadband Technology Opportunities Program (BTOP) – National Broadband Plan Recovery Act Funds
(Financing Source) - During FY 2009, the NTIA transferred $20,055 in appropriated funds to the
Commission for the purpose of establishing benchmarks to ensure that all people of the United States
have access to broadband capability. These funds are part of the ARRA of 2009. The Commission also
entered into additional reimbursable agreements with NTIA and the United States Department of
Agriculture (USDA) for the detail of various Commission employees to provide advice and assistance in
the implementation and administration of BTOP as well as providing for the use of the Tower
Construction Notification System in support of the Broadband Initiatives Program. NTIA and USDA
advanced the Commission $724 in appropriated funds for these efforts. These funds are part of the
ARRA of 2009, which were available for use during FY 2009 and FY 2010.

Broadband Technology Opportunities Program – National Broadband Map Recovery Act Funds
(Financing Source) – During FY 2010, the NTIA entered into a reimbursable agreement with the
Commission to provide technical and other services needed to develop a comprehensive nationwide
inventory map of existing broadband service capability and availability in the United States. NTIA
advanced the Commission a total of $18,650 in ARRA funds to support this effort.

Allocation of Exchange Revenues
In FY 2010, the Commission directly assigned exchange revenue from reimbursable work agreements to
specific programs on the Statement of Net Cost. Exchange revenue from application fees and offsetting
collections related to Regulatory Fees and the Competitive Bidding System were assigned to programs in
direct proportion to the level of direct and indirect costs recognized for each program. Radio Spectrum
Auction proceeds are exchange revenue but were recorded on the Statement of Custodial Activity because
the Commission recognizes virtually no cost in connection with the revenues earned in the spectrum
auction. Beginning in FY 2011, the Commission no longer allocates exchange revenue to programs since
there is no direct relationship between earned revenues and specific programs. The entire balance is
reported on the line "Less: earned revenues not attributed to programs.”

Reprogramming
The Commission received approval in FY 2010 to reprogram $4,500 of prior year obligations that were
deobligated to enable the Commission to focus on important media issues and continue to make a critical
investment in the people needed to transform the Commission into a twenty-first century agency for the
information age. The Commission did not submit a request in FY 2011 to reprogram any of these prior
year funds.
Note 1 - Summary of Significant Accounting Policies (continued)

P. Transactions with Related Parties

The Commission has a direct oversight relationship with the administrators and billing and collection
agents (B&C agents) of funds that are components under the overall Commission entity. These
organizations are the Universal Service Administrative Company (USAC), which is both the
administrator and B&C agent for the four Universal Service Fund (USF) support mechanisms, Rolka
Loube Saltzer Associates (RLSA), which is both the administrator and B&C agent for the
Telecommunications Relay Service (TRS) Fund (prior to July 1, 2011, the National Exchange Carrier
Association (NECA) was the administrator and B&C agent for the TRS Fund), and Neustar which is the
administrator for the North American Numbering Plan (NANP) Fund and Welch LLP which is the B&C
agent for the NANP Fund. The Commission approves the administrative costs paid to these entities from
the respective funds that they manage. The administrative costs cover expenses such as the salaries and
benefits for the employees dedicated to managing the funds; rent and utilities for office space used;
accounting and other financial reporting related services; and other management activities. All related
party balances as of and for the years ended September 30, 2011 and 2010 are listed below:

                               USF             TRS              NANP             Total
Administrative Fees:

FY 2011                    $   102,118     $     2,082      $     4,587      $   108,787

FY 2010                    $   108,105     $     1,521      $     3,899      $   113,525


Q. Net Position

Net Position is the residual difference between assets and liabilities, and is comprised of Unexpended
Appropriations and Cumulative Results of Operations. Unexpended Appropriations represents the
amount of unobligated and unexpended budget authority. Unobligated Balance is the amount of
appropriations or other authority remaining after deducting the cumulative obligations from the amount
available for obligation. Cumulative Results of Operations is the net difference since the inception of the
Commission of (1) expenses and losses and (2) financing sources including appropriations, revenues, and
gains.
Note 2 - Non-entity Assets

The following summarizes Non-entity Assets as of September 30, 2011 and 2010:

                                                                               FY 2011                      FY 2010

 Intragovernmental:
   Fund Balance with Treasury (FBWT)                                       $         266,981            $       261,822
   Accounts Receivable, Net                                                            1,081                        556
   Other (Note 8)                                                                      2,436                     33,838
 Total Intragovernmental                                                             270,498                    296,216

 Accounts Receivable, Net                                                             19,304                     21,598
 Total Non-entity Assets                                                             289,802                    317,814
 Total Entity Assets                                                               7,149,448                  7,272,367
 Total Assets                                                              $       7,439,250            $     7,590,181


Non-entity Fund Balance with Treasury primarily represents deposits made towards spectrum auction
winning bids. These deposits accounted for $238,425 in FY 2011 and $250,788 in FY 2010. Non-entity
Cash and Other Monetary Assets also consist of deposits made by spectrum auction bidders that are held
outside of Treasury. Receivables considered non-entity are for regulatory fees, application fees, fines and
forfeitures, spectrum auction receivables, and International Telecommunications Settlement (ITS)
charges.

Note 3 - Fund Balance with Treasury

The following summarizes Fund Balance with Treasury as of September 30, 2011 and 2010:

FY 2011
                                      Appropriated
                                        Funds        Revolving Funds   Deposit Funds         Total

Unobligated Balance
 Available                            $    28,782    $        37,008   $             -   $     65,790
 Unavailable                               80,990                  -                 -         80,990
Obligated Balance not yet Disbursed        80,579                  -                 -         80,579
Non-Budgetary FBWT                              -                  -           266,981        266,981
Total                                 $   190,351    $        37,008   $       266,981   $    494,340



FY 2010
                                      Appropriated
                                        Funds        Revolving Funds   Deposit Funds         Total

Unobligated Balance
 Available                            $    44,972    $         4,387   $             -   $     49,359
 Unavailable                               61,004                  -                 -         61,004
Obligated Balance not yet Disbursed        85,183                  -                 -         85,183
Non-Budgetary FBWT                              -                  -           261,822        261,822
Total                                 $   191,159    $         4,387   $       261,822   $    457,368
Note 3 - Fund Balance with Treasury (continued)

Appropriated Funds – Includes the salaries and expense appropriation used to fund agency operations, the
auction and reimbursable accounts, the credit reform program account, and the no-year accounts used to
carry over spectrum auction funds, offsetting collections, excess regulatory fees, and the Office of
Inspector General USF funds.
Revolving Funds – Includes the credit reform financing account used to record cash flows associated with
the Commission’s spectrum auction loan program.

Deposit Funds – Includes monies being held for spectrum auctions, ITS, and regulatory fees. Deposit
funds are not available for use by the Commission unless they are properly identified or reclassified as
Commission funds. Otherwise, these funds are returned to the depositor or transferred to the Treasury.

Note 4 – Cash and Other Monetary Assets

The following summarizes Cash and Other Monetary Assets as of September 30, 2011 and 2010:


                                               FY 2011                 FY 2010

Cash and Other Monetary Assets             $    213,944            $    100,344

USF and NANP contributions and third party deposits made pursuant to spectrum auction activities are
the source of funds for these balances. Third-party deposits, unless refunded, are held until 45 days after
the close of a given auction and then transferred to the Commission’s Treasury account. Interest earned
on cash and other monetary assets is reinvested, with the exception of interest earned on third-party
deposits, which is transferred to the Telecommunications Development Fund (TDF).

In FY 2011, Cash and Other Monetary Assets included $210,948 in USF contributions and related
accrued interest being held for distribution, and $2,996 in NANP deposits and related accrued interest.

In FY 2010, Cash and Other Monetary Assets included $97,417 in USF contributions and related accrued
interest being held for distribution, and $2,927 in NANP deposits and related accrued interest.
Note 5 - Investments

The following summarizes Investments as of September 30, 2011 and 2010:

                                                                 Amortized                                  Market
                                     Purchase     Amortization   (Premium)    Interest    Investments,      Value
                                       Cost         Method        Discount   Receivable       Net         Disclosures

FY 2011
Intragovernmental Securities:

 Marketable Securities
 Treasury Bills                  $    1,462,490       EI         $       36 $         -   $   1,462,526   $   1,462,532
 Treasury Notes                       4,358,452       EI             (4,735)      6,600       4,360,317       4,371,790
 Total                           $    5,820,942                  $   (4,699) $    6,600   $   5,822,843   $   5,834,322

FY 2010
Intragovernmental Securities:

 Marketable Securities
 Treasury Bills                  $    4,264,815       EI         $    2,370 $         -   $   4,267,185   $   4,267,642
 Treasury Notes                       1,821,636       EI             (5,770)      4,664       1,820,530       1,821,310
 Total                           $    6,086,451                  $   (3,400) $    4,664   $   6,087,715   $   6,088,952

EI - Effective Interest Method


All Treasury securities, regardless of the maturity date, are reported as investments. The Commission
expects to hold all investments to maturity; therefore, no adjustments have been made to present market
values. All investments are held by USF and are also recognized as part of earmarked funds in Note 18.

The cash receipts collected from the public for the USF are used to purchase federal securities. Treasury
securities are an asset to the USF and a liability to the U.S. Treasury. Because the USF and the U.S.
Treasury are both parts of the Government, these assets and liabilities offset each other from the
standpoint of the Government as a whole. For this reason, they do not represent an asset or a liability in
the U.S. Government-wide financial statements.

Treasury securities provide the USF with authority to draw upon the U.S. Treasury to make future benefit
payments or other expenditures. When the USF requires redemption of these securities to make
expenditures, the Government finances those expenditures out of accumulated cash balances, by raising
taxes or other receipts, by borrowing from the public or repaying less debt, or by curtailing other
expenditures. This is the same way that the Government finances all other expenditures.
Note 6 - Accounts Receivable, Net

The following summarizes Accounts Receivable, Net as of September 30, 2011 and 2010:

FY 2011
                                                   Intragovernmental                            Public                    Total

 Gross Accounts Receivable                         $                   1,097        $                1,431,499 $          1,432,596
 Allowance for Doubtful Accounts                                   (       -)                         (600,427)            (600,427)
Net Accounts Receivable                            $                   1,097        $                  831,072 $            832,169

FY 2010
                                                   Intragovernmental                            Public                    Total

 Gross Accounts Receivable                         $                       571      $                1,236,959 $          1,237,530
 Allowance for Doubtful Accounts                                   (         -)                       (453,339)            (453,339)
Net Accounts Receivable                            $                       571      $                  783,620 $            784,191


Accounts receivable are recorded net of any related allowance for doubtful accounts. The Commission’s
portion is determined by applying predetermined percentages against the respective date the receivable
was established. The current formula for the Commission’s allowance is 25% for receivables 91-180
days outstanding, 75% for those 181-365 days outstanding, and 100% for anything greater than 365 days
outstanding. An additional analysis of higher dollar value receivables is also performed on individual
account balances. The USF portion is determined by calculating an estimated general allowance for
doubtful accounts receivable. The general allowance is calculated by multiplying the receivable amounts
by the percentage of the estimated uncollectible amount as determined by a review of historical collection
rates by type of receivable.

The Notice of Apparent Liabilities (NAL) receivables represent notifications of a forfeiture, subject to
final determination. The NAL receivables are included under the Forfeitures category in the table below.
While these receivables are included on the Treasury Report on Receivables at the request of Treasury,
the ability to collect these receivables is not determined until a final judgment is issued. A 100%
allowance is made for all NAL receivables. Similarly, the Commitment Adjustment (COMAD) for
Schools and Libraries audit receivables are subject to appeal and are not considered final until the appeals
period has lapsed or a final determination has been issued. The COMAD audit receivables for Schools
and Libraries have a 93% allowance in FY 2011 and 74% allowance in FY 2010.

                                                       FY 2011                                                      FY 2010

                                     Accounts                                                    Accounts
                                    Receivable         Allowance              Net               Receivable         Allowance           Net

USF                             $      1,065,218   $      (268,724)    $          796,494   $        973,987   $      (245,241)   $     728,746
COMAD - Schools and Libraries            200,342          (185,717)                14,625            124,859           (91,896)          32,963
Regulatory Fees                           35,740           (24,194)                11,546             29,832           (18,581)          11,251
Spectrum Auction                          21,258           (21,254)                     4             21,254           (21,254)               -
Forfeitures                               95,102           (88,399)                 6,703             70,323           (65,393)           4,930
Other                                     14,936           (12,139)                 2,797             17,275           (10,974)           6,301
Total                           $      1,432,596   $      (600,427)    $          832,169   $      1,237,530   $      (453,339)   $     784,191
Note 7 – Loans Receivable, Net

Under section 309(j)(3) of the Act, as amended, Congress directed the Commission to implement a
competitive bidding (auctions) system for licensing spectrum to expand economic opportunity, promote
competition, and facilitate the development and delivery of new and improved telecommunications
services to the public. Section 309(j)(4) of the Act gave the Commission certain instructions for
implementing regulations for this system, including a directive to ensure that small businesses, rural
telephone companies, and women and minority-owned businesses have an opportunity to participate in
providing spectrum-based services. The Commission can use various means to facilitate expanded
participation, including alternative payment schedules, tax certificates, bidding preferences, and other
procedures.

To address the mandate, the Commission provided installment financing in connection with its spectrum
auction events, including the C Block Broadband Personal Communications Services (PCS), F Block
PCS, Narrowband PCS, Interactive Video and Data Service (IVDS), Multichannel Distribution Service
(MDS), and 900MHz Specialized Mobile Radio (SMR). Under the installment financing program,
winning bidders were generally given five or ten years to repay their net winning bid amount (less the
down payment), with up to five-year, interest-only initial payment periods. Interest rates varied by the
type of borrower. Retention of licenses granted at auction was strictly conditioned on making full and
timely payment of amounts as they became due. The return or repossession of auctioned licenses, which
may have previously been associated with installment payment plans, does not directly or immediately
affect the amount of the outstanding debt recorded in the agency’s financial records. Outstanding debt
adjustments are subject to a separate process.

The Commission’s first auction was conducted in 1994, and starting in 1995 installment payment
mechanisms were used to finance portions of some winning bids. The Commission’s installment loan
portfolio is tracked under ten cohorts. The last active loan matured in April 2007.

As required under the FCRA of 1990, as amended, the Commission coordinates with OMB in developing
estimation guidelines, regulations, and the criteria used in calculating the subsidy estimates and
reestimates. The most recent subsidy reestimate was completed in September 2011 for actual
performance data through September 30, 2011. The reestimate resulted in a net upward adjustment,
including interest on the reestimate, of $17,629 reported in FY 2011 financial statements. A net upward
adjustment, including interest on the reestimate, of $40,118 was reported in FY 2010 financial statements.

Direct Loans

                Loans                                          Allowance for          Value of
                Receivable,     Interest        Other          Subsidy Cost       Assets Related
Loan Program    Gross           Receivable      Receivables   (Present Value)     to Direct Loans

Spectrum Auctions:
    FY 2011 Bal. $ 130,533      $    8,932      $    1,195        $   (140,656)           $         4

    FY 2010 Bal. $ 197,837      $   15,410      $    1,483        $   (166,260)           $    48,470

Interest accrued on bankrupt and defaulted loans totaled $8,932 in FY 2011 and $15,410 in FY 2010.

Other Receivables is composed of outstanding late fees on the loans receivable.
Note 7 – Loans Receivable, Net (continued)

Total Amount of Direct Loans Disbursed

No new loans were issued in FY 2011 and FY 2010.

Subsidy Expense for Direct Loans by Program and Component

Direct Loan Modifications and Reestimates:
                                             Interest Rate       Technical                Total
Loan Program             Modifications       Reestimates         Reestimates              Reestimates

Spectrum Auctions:
   FY 2011 (Net)         $        -          $          -        $      17,629            $      17,629

   FY 2010 (Net)         $        -          $          -        $      40,118            $      40,118


Schedule for Reconciling Subsidy Cost Allowance Balances

                                                                 FY 2011                 FY 2010
Beginning Balance of the Subsidy Cost Allowance              $   166,260         $        135,251

Adjustments:
       Recoveries                                                      -                      16
       Loans written off                                         (42,711)                 (3,975)
       Subsidy allowance amortization                              (522)                  (5,150)
Ending balance before reestimates                                123,027                 126,142
Subsidy reestimates:
       Technical/default reestimate                                  17,629               40,118

Ending balance of the subsidy cost allowance                 $ 140,656           $ 166,260


Administrative Expense                                           FY 2011                 FY 2010

   Spectrum Auctions                                         $        4,884          $        3,572
Note 8 – Other Assets

The Commission was required by the Digital Television Transition and Public Safety Act of 2005 to
auction recovered analog spectrum licenses; the proceeds received from such auctions were to be
transferred in to the Digital Television Transition and Public Safety Fund (the Fund) by June 30, 2008.
At the time of transfer and through September 30, 2008, there was $17,177,707 in proceeds that had not
been earned by the Federal government because the licenses related to these proceeds had not been
granted. As the custodian for this spectrum, the Commission retained a deferred revenue liability to the
public for this amount in the event that any of these proceeds were required to be refunded. As an offset
to the liability, the Commission recognized an Intragovernmental Other Asset from the National
Telecommunications and Information Administration (NTIA) who held the related Fund Balance. The
NTIA recorded a corresponding Other Liability that eliminates with the Commission’s Intragovernmental
Other Asset for Government-wide Financial Reporting purposes. Since September 30, 2010, the
Commission granted additional licenses totaling $31,402. There remain Intragovernmental Other Asset
and Deferred Revenue balances of $2,436 at September 30, 2011, that relate to Auction #73 licenses that
have not yet been granted.

Note 9 - Liabilities Not Covered by Budgetary Resources

The following summarizes Liabilities Not Covered by Budgetary Resources as of September 30, 2011
and 2010:
                                                                FY 2011        FY 2010
        Intragovernmental:
             Other:
                 FECA Liability                              $       482    $       590
                 GSA Real Estate Taxes                             2,357           5,335
        Other:
                 Unfunded Leave                                   20,108          20,691
                 Accrued Liabilities for Universal Service       633,967         622,400
        Total liabilities not covered by budgetary resources     656,914         649,016
        Total liabilities covered by budgetary resources         546,797         690,268
        Total Liabilities                                    $ 1,203,711     $ 1,339,284


Note 10 - Debt

                           FY 2010                      FY 2010                        FY 2011
                           Beginning     Net            Ending        Net              Ending
                           Balance       Borrowing      Balance       Borrowing        Balance

Debt to the Treasury       $ 46,484      $ 41,242       $ 87,726      $ (37,426)       $ 50,300

The Commission borrows from the Treasury for costs associated with its spectrum auction loan program.
Borrowings, pertaining to all loan cohorts, are determined by calculating the subsidy estimates and
reestimates in accordance with the FCRA of 1990, as amended.
Note 11 - Other Liabilities

The following summarizes Other Liabilities as of September 30, 2011 and 2010:

FY 2011                                       Non-Current            Current             Total
Intragovernmental
     Custodial Liability                       $          -      $     206,524       $    206,524
     Other                                                -             13,725             13,725
Total Intragovernmental                        $          -      $     220,249       $    220,249

Deferred Revenue                               $    30,144       $      62,909       $     93,053
Prepaid Contributions                                    -              77,362             77,362
Accrued Liabilities for Universal Service                -             633,967            633,967
Other                                                    -              35,804             35,804
Total Other Public                             $    30,144       $     810,042       $    840,186



FY 2010                                       Non-Current            Current             Total
Intragovernmental
     Custodial Liability                       $          -      $     226,400       $    226,400
     Other                                                -             25,572             25,572
Total Intragovernmental                        $          -      $     251,972       $    251,972

Deferred Revenue                               $    26,637       $     105,749       $    132,386
Prepaid Contributions                                    -              74,915             74,915
Accrued Liabilities for Universal Service                -             622,400            622,400
Other                                                    -              49,408             49,408
Total Other Public                             $    26,637       $     852,472       $    879,109

The Custodial Liability includes both cash collected and receivables being held for transfer to the
Treasury’s General Fund. The Commission collects the following types of custodial revenue: spectrum
auction revenue, fines and forfeitures revenue, penalty revenue on regulatory fees, ITS processing fees,
and interest revenue on auction deposits (held for TDF). Deferred revenue represents regulatory fees,
spectrum auction revenue, or contributor payments that have been received but not earned by the
Commission.

Prepaid Contributions include USF and NANP contribution overpayments that may be refunded or used
to offset future payments. Accrued Liabilities for Universal Service represent liabilities recorded by the
USF for anticipated subsidies in the High Cost, Low Income, and TRS programs. The obligation for
these subsidies is not recognized until payment files are approved in the subsequent month. Remaining
Other Liabilities primarily represent anticipated payments for services received but not billed, and
Deposit/Unapplied Liability which represents upfront deposits made by auction bidders as well as funds
received that are being held until proper application is determined.
Note 12 - Commitments and Contingencies

The Commission, USAC, and the Department of Justice are investigating several cases and prosecuting
others related to disbursements of USF funds from the Schools and Libraries, High Cost, and Low
Income programs which might result in future proceedings or actions. Similarly the Commission, RLSA,
and the Department of Justice are investigating several cases related to the TRS funds. The complexity of
these future actions precludes management from estimating the total amount of recovery that may result.

The Commission is a party in various administrative proceedings, legal actions, and claims brought by or
against the agency. In addition, there is one bankruptcy proceeding related to the loan portfolio. In the
opinion of Commission management, the ultimate resolution of proceedings, actions and claims will not
materially affect the Commission’s financial position or results of operations.

The Commission has examined its obligations related to cancelled authority and believes it has no
outstanding commitments requiring future resources other than those as disclosed in Note 9. In addition,
there are certain operating leases that may contain provisions regarding contract termination costs upon
early contract termination.

In September 2007, the National Treasury Employees Union (NTEU) filed a grievance with the
Commission under the Federal Labor Standards Act (FLSA) alleging that certain Commission bargaining
unit employees were not sufficiently compensated for overtime work. It is reasonable to believe that a
Commission loss on some issues is a possible outcome. However, it is impossible to estimate the
monetary impact of the grievance at this time.


Note 13 – Intragovernmental Costs and Exchange Revenue

Intragovernmental costs primarily represent goods and services purchased by the Commission
from other Federal agencies.
Note 13 – Intragovernmental Costs and Exchange Revenue (continued)

Program Costs - FY 2011
                   Program                       Intragovernmental          Public                     Total
Broadband                                       $            14,595    $          39,941       $            54,536
Competition and Innovation                                   74,057            9,025,865                 9,099,922
International                                                 1,807                4,946                     6,753
Consumers                                                    12,353               33,803                    46,156
Public Safety and Homeland Security                           9,521               26,055                    35,576
Continual Improvement                                        13,549               37,077                    50,626
Total                                           $           125,882    $       9,167,687       $         9,293,569

Earned Revenue - FY 2011
                                                 Intragovernmental          Public                     Total
Total Earned Revenue                            $           18,624     $         454,206       $           472,830


Program Costs - FY 2010
                   Program                       Intragovernmental          Public                     Total
Broadband                                       $            17,197    $          63,578       $            80,775
Competition                                                  30,157            8,993,726                 9,023,883
Spectrum                                                     33,885              120,600                   154,485
Media                                                        11,871               38,309                    50,180
Public Safety and Homeland Security                          12,437               29,883                    42,320
Modernize the FCC                                            14,335               55,810                    70,145
Total                                           $           119,882    $       9,301,906       $         9,421,788

Earned Revenue - FY 2010
                                                 Intragovernmental          Public                     Total
Total Earned Revenue                            $            6,855     $         457,190       $           464,045




Note 14 - Apportionment Categories of Obligations Incurred: Direct vs. Reimbursable Obligations

The following summarizes Apportionment Categories of Obligations Incurred for the years ended
September 30, 2011 and 2010:
                                                      FY 2011                            FY 2010
                                          Budgetary         Non-Budgetary          Budgetary   Non-Budgetary
Direct
      Category A                      $  1,098,682          $          -       $    420,586        $     -
      Category B                            49,304                 8,065            763,872         64,072
      Exempt from Apportionment          8,979,531                     -          9,774,142              -
Total Direct                          $ 10,127,517          $      8,065       $ 10,958,600        $64,072

Reimbursable
     Category A                       $       4,206         $          -       $      17,740       $     -

Category A – Apportioned by Quarter
Category B – Apportioned by Purpose
Note 15 - Terms of Borrowing Authority Used

                                             FY 2011                  FY 2010
Maturity Dates:
    September 30, 2011                   $      -                 $    56,732
    September 30, 2013                     50,449                           -
Total Borrowing Authority Used           $ 50,449                 $    56,732

The Commission used $50,449 in borrowing authority for the year ending September 30, 2011, and
$56,732 in borrowing authority for the prior year ending September 30, 2010. This authority was used to
extend the maturity dates of the debt owed to BPD. The Commission anticipates that this borrowing will
be repaid from proceeds generated from the recovery of funds related to bankrupt and defaulted loans.

Note 16 – Legal Arrangements Affecting Use of Unobligated Balances

Pursuant to Public Law 111-8, offsetting collections received in excess of $335,794 in FY 2011 shall not
be available for obligation and any remaining offsetting collections from prior years collected in excess of
the amount specified for collection in each such year otherwise becoming available on October 1, 2010,
are not available for obligation.

Note 17 - Explanation of Differences Between the Statement of Budgetary Resources (SBR) and the
Budget of the U.S. Government

The only material difference between the Combined Statement of Budgetary Resources (SBR) for FY
2010 and the amounts presented in the 2012 President’s Budget was $150,000 between the lines titled
“Unobligated balance – available” and “Unobligated balance – not available.” These two lines net to
zero. OMB Circular No. A-136, Financial Reporting Requirements, requires all unapportioned balances
to be reflected as “Unobligated balance - not available” on the SBR. The President’s Budget determines
availability based on the fund type and legislation, and places the unapportioned balance for the
Commission, including USF, on line “Unobligated balance - available.”

The FY 2012 Budget of the United States Government (President’s Budget) with actual numbers for FY
2011 has not been published. Pursuant to 31 USC § 1105, the Budget of the United States Government
will be released the first Monday in February, and will be available at the following website:
http:/www.whitehouse.gov/omb.

Note 18 – Earmarked Funds

U.S. telecommunications companies are obligated to make contributions to the USF and the TRS. These
contributions are accounted for in the Budget of the U.S. Government as the “Universal Service Fund.”
The Commission currently recognizes the contributions collected under the USF Program as non-
exchange revenue on its Statement of Changes in Net Position, and the related disbursements as program
expenses on the Statement of Net Cost.

The following summarizes the significant assets, liabilities, and related costs incurred with managing the
USF Program as of September 30, 2011 and 2010:
Note 18 – Earmarked Funds (continued)

                                                  FY 2011           FY 2010
Balance Sheet

ASSETS
Investments                                   $    5,822,843    $    6,087,715
Cash and other monetary assets                       210,948            97,417
Accounts receivable, net                             842,768           775,594
General property, plant, and equipment, net            6,330            10,771
Other assets                                          13,024            13,024
  Total assets                                $    6,895,913    $    6,984,521

LIABILITIES
Accounts payable                              $      82,113     $     120,149
Deferred revenue                                     13,161            31,150
Prepaid contributions                                77,322            74,881
Accrued liabilities                                 633,967           622,400
Total liabilities                             $     806,563     $     848,580

Cumulative results of operations              $    6,089,350    $    6,135,941

  Total liabilities and net position          $    6,895,913    $    6,984,521

Statement of Net Cost

Net cost of operations                        $    8,818,540    $    8,906,162

Statement of Changes in Net Position

Net position beginning of period              $    6,135,941    $    6,051,177
Non-exchange revenue                               8,771,949         8,990,926
Net cost of operations                             8,818,540         8,906,162
Change in net position                               (46,591)           84,764

Net position end of period                    $    6,089,350    $    6,135,941
Note 19 – Undelivered Orders at the End of the Period

The amount of budgetary resources obligated for undelivered orders totaled $3,314,084 as of September
30, 2011, and $3,585,456 as of September 30, 2010.

Note 20 – Reconciliation of Net Cost of Operations (Proprietary) to Budget (Formerly the
Statement of Financing)

As of September 30, 2011 and 2010:
                                                                                               FY 2011            FY 2010

Budgetary Resources Obligated:
 Obligations incurred                                                                      $    10,139,788    $    11,040,412
 Less: spending authority from offsetting collections and recoveries                             1,591,120          1,524,412
 Obligations net of offsetting collections and recoveries                                        8,548,668          9,516,000
 Less: offsetting receipts                                                                          59,041            110,015
 Net obligations                                                                                 8,489,627          9,405,985
Other Resources                                                                                     (6,772)           (64,814)
Resources Used to Finance Items not Part of the Net Cost of Operations:
 Change in Undelivered Orders                                                                     271,372            (527,248)
 Resources that fund expenses recognized in prior periods                                            (691)                -
 Budgetary offsetting collections and receipts that do not affect net cost of operations          137,152             124,888
 Resources that finance the acquisition of assets                                                 (13,089)            (32,392)
 Other                                                                                            145,253              21,857
Components of the Net Cost of Operations That Will Not Require or Generate
Resources in the Current Period:
 Increase in annual leave liability                                                                   (583)             1,069
 Upward/Downward reestimates of credit subsidy (+/-)                                                17,629             40,118
 Increase in exchange revenue receivable from the public                                             3,872              1,460
 Depreciation and amortization                                                                      17,797             17,039
 Revaluation of assets or liabilities (+/-)                                                            -                 (100)
 Other (+/-)                                                                                      (240,803)           (26,697)

Net Cost of Operations                                                                     $     8,820,764    $     8,961,165



Note 21 – Comparability of the Financial Statements

Statement of Net Cost
In FY 2011, the Commission no longer allocated exchange revenues to the programs. Instead the
exchange revenue is reported under the line Less: Earned Revenues not Attributed to Programs.

A reporting change was also made for FY 2011 that impacted the programs listed on the Statement of Net
Cost. Effective for FY 2011, the Commission began accounting for costs under the new strategic goals
presented in the FY 2011-2016 Strategic Plan.

Statement of Changes in Net Position
In FY 2011, the Commission began reporting section 8 fees under Standard General Ledger (SGL)
account 5993, Offsetting Non-entity Collections, rather than SGL account 5730, Financing Sources
Transferred Out without Reimbursement, which was used in FY 2010. The effect of this change reports
the FY 2011 section 8 fees of $23,892 on the line Other under Other Financing Sources (Non-exchange)
rather than on the line Transfer In/Out without Reimbursement.
REQUIRED SUPPLEMENTARY INFORMATION

REQUIRED SUPPLEMENTARY INFORMATION – STATEMENT OF BUDGETARY
RESOURCES
For the Year Ended September 30, 2011
(Dollars in thousands)

OMB Circular No. A-136, Financial Reporting Requirements, requires additional disclosure of an entity's
budgetary information by major budgetary account if the information was aggregated for presentation
purposes on the Statement of Budgetary Resources. The major budget accounts include the Commission
and the USF. Reflected in the chart below are the major accounts of the Commission that are aggregated
and presented in the September 30, 2011 Combined Statement of Budgetary Resources.

STATEMENT OF BUDGETARY RESOURCES


FY2011                                                      S&E              Credit        Auctions           USF                 Total
Budgetary Resources:

Unobligated balances - brought forward, October 1       $     38,735     $       11,129    $      199     $    2,521,896 $         2,571,959
Recoveries of prior year unpaid obligations                    5,727                  8           661          1,055,764           1,062,160
Budget authority                                             346,232            168,827        85,269          8,764,107           9,364,435
Nonexpenditure transfers, net, anticipated and actual            159                  -          (159)                 -                   -
Temporarily not available pursuant to Public Law              (6,247)                 -             -                  -              (6,247)
Permanently not available                                        (38)           (87,874)            -                  -             (87,912)
Total budgetary resources                               $    384,568     $       92,090    $   85,970     $   12,341,767 $        12,904,395

Status of Budgetary Resources:

Obligations incurred                                    $    347,517     $       50,593    $   84,367     $    9,657,311 $        10,139,788
Unobligated balances - available                              16,067              4,460           608          2,550,957           2,572,092
Unobligated balances - not available                          20,984             37,037           995            133,499             192,515
Total, status of budgetary resources                    $    384,568     $       92,090    $   85,970     $   12,341,767 $        12,904,395

Change in Obligated Balance:

Total unpaid obligated balance, net brought Forward     $      59,979    $        4,444    $    21,138    $     3,650,690 $        3,736,251
Obligations incurrred, net                                    347,517            50,593         84,367          9,657,311         10,139,788
Gross outlays                                                (346,175)          (53,457)       (80,589)        (8,916,869)        (9,397,090)
Recoveries of prior year unpaid obligations, actual            (5,728)               (8)          (661)        (1,055,763)        (1,062,160)
Change in uncollected customer payments from                     (382)                -              -                  -               (382)
 Federal sources
Total, Unpaid obligated balance, net, end of period     $     55,211     $        1,572    $   24,255     $    3,335,369      $    3,416,407

Net Outlays

Gross outlays                                           $     346,175    $       53,457    $    80,589    $    8,916,869 $         9,397,090
Offsetting collections                                       (345,850)          (78,111)       (85,269)          (19,348)           (528,578)
Distributed offsetting receipts                               (36,417)                -              -           (22,624)            (59,041)
Net outlays                                             $     (36,092)   $      (24,654)   $    (4,680)   $    8,874,897 $         8,809,471
